           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


    EARNINGS RECORDS WITH MULTIPLE
   EMPLOYER IDENTIFICATION NUMBERS


     January 2009   A-08-08-18002




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   January 5, 2009                                                                    Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Earnings Records with Multiple Employer Identification Numbers (A-08-08-18002)



        OBJECTIVE
        Our objective was to assess the probability that more than one individual worked under
        the same Social Security number (SSN) when the earnings record indicated a large
        number of employers reported wages for the numberholder in Tax Year (TY) 2005.

        BACKGROUND

        Because the Social Security Administration (SSA) bases future benefits on earnings an
        individual accumulates over his or her lifetime, accuracy in recording those earnings is
        critical. SSA maintains a Master Earnings File (MEF) 1 of annual wages reported by
        employers and the Internal Revenue Service (IRS) for U.S. workers. 2 SSA’s ability to
        ensure individuals’ earnings are properly credited to the MEF is greatly dependent on
        employers and employees accurately reporting SSNs and names on a Form W-2 (Wage
        and Tax Statement).

        SSA uses automated edits to match individuals’ SSNs and names on W-2s to its
        Numident file—the repository for all issued SSNs. 3 When SSA cannot associate




        1
          The MEF contains all earnings data reported by employers and self-employed individuals. SSA uses
        the data to determine eligibility for, and the amount of, Social Security benefits (71 Federal Register 1796,
        1819-1820 [January 11, 2006]).
        2
         The Social Security Act § 205(c)(2)(A), 42 U.S.C. § 405(c)(2)(A) requires that SSA maintain records of
        wage amounts employers pay to individuals.
        3
          When SSA assigns an SSN to an individual, it creates a master record in its Numident file containing
        relevant information about the numberholder. Such information may include the numberholder’s name,
        date and place of birth, parents’ names, citizenship status, and date of replacement Social Security cards
        issued. See 71 Federal Register 1796, 1815-1816 (January, 11, 2006).
Page 2 - The Commissioner


reported earnings to a specific name/SSN combination, it posts the W-2 data in the
Earnings Suspense File (ESF)—the repository for all unmatched wage items, including
disclaimed wages. 4

When an individual assumes another person’s identity to work in the United States—
using the numberholder’s actual SSN and name to do so—wages reported for that
individual will be posted to the true numberholder’s account. Generally, unless the true
numberholder recognizes the overstatement of earnings and disclaims the wages with
SSA and/or the IRS, these earnings remain overstated in SSA’s records. This may
result in SSA paying individuals more benefits than they are entitled to receive.

To accomplish our objective, we obtained an extract of SSNs with earnings records that
contained six or more employer identification numbers (EIN) 5 in TY 2005. From our
universe of 881,019 SSNs, we created 3 populations: SSNs with 6 to 12 EINS
(Category A), 13 to 100 EINs (Category B), and over 100 EINs (Category C). The
population and sample sizes for each category are shown in Table 1.

         Table 1: Details for TY 2005 Earnings Records Selected for Review

                            Number of
                        Employers Reporting
                            Wages for                   Universe of SSNs                 Sample
     Category             Numberholders                   in Category                     Size
        A                      6 to 12                      859,402                        250
        B                    13 to 100                        21,603                       200
        C                    Over 100                             14                        14
      Total                                                 881,019                       464

When reviewing the sample items, we performed a variety of analyses to determine
whether SSN misuse may have occurred—that is, whether it appeared another person
used the numberholder’s SSN for work purposes. For example, we reviewed the dollar
amounts of the various wage postings to determine whether multiple full-time jobs were
purported for each numberholder during the same period. More information regarding
our scope and methodology can be found in Appendix B.




4
  Disclaimed wages are earnings posted to a numberholder’s record, which he/she alleges do not belong
to him/her. There are numerous reasons why disclaimed wages occur. However, for our review, we
focused only on those disclaimed wage items that appeared to have resulted from another person using
the numberholder’s SSN and name to work.
5
  The EIN is a nine-digit number assigned by the IRS to sole proprietors, corporations, partnerships,
estates, trusts, and other entities for tax filing and reporting purposes. SSA records employers’ EINs with
the associated wage postings in the MEF.
Page 3 - The Commissioner


From our analyses, we determined that 41 of the cases had multiple wage postings that
appeared to involve more than 1 individual using the same SSN and name to work. For
these 41 SSNs, we contacted approximately 564 employers to verify whether the
individual(s) who worked using the SSNs and names of the true numberholders were
employed full- or part-time. Additionally, we asked that the employers provide the
numberholders’ dates of employment. With this information, we determined whether it
was feasible that one individual was employed by multiple employers during TY 2005—
or whether multiple individuals used the same SSN and name to work during that
period. Additionally, we referred 14 cases with apparent anomalies involving
numberholders with over 100 employers during the audit period to our Office of
Investigations for further review. Our Office of Investigations looked at these 14 cases
but did not find convincing evidence of any improper activity.

RESULTS OF REVIEW
Our audit confirmed that earnings records with wages reported by multiple employers in
1 year may indicate SSN misuse. That is, when SSA receives wage reports for one
numberholder from more than six employers in 1 year, it may suggest that multiple
individuals are using the SSN and name to work. For example, in our sample of
numberholders with wages reported by 6 to 12 employers, it appears that 1.6 percent of
the SSNs/names were used by more than 1 person to work in the U.S. economy.
Additionally, in our sample of numberholders with wages reported by 13 to
100 employers, we estimate that 2,268 (10.5 percent) of the 21,603 SSNs in the
population were used by more than 1 person for work purposes.

Along with our Office of Investigations, we determined there are legitimate reasons an
individual may receive wage reports from multiple employers. For example, for TY 2005
cases in which over 100 employers reported wages for a numberholder, we found no
evidence of SSN misuse. Rather, it appears these 14 numberholders served as
resident agents, officers and/or board members for numerous “passive investment
corporations” and received wages from each. 6

Without extensive research into each instance where more than six employers reported
wages for a numberholder in a TY, we believe it would be imprudent to conclude that
SSN misuse occurred in each case. Accordingly, we are not recommending that SSA
take action to routinely examine such occurrences. However, when a numberholder
disclaims wages from an employer and reports SSN misuse to SSA, we believe the
Agency should implement procedures that preclude it from posting any future wages
reported by these same employers. 7 Additionally, we believe SSA could better ensure

6
  Passive investment corporations deal with what are considered intangible assets and income, such as
royalties, interest, fees, intellectual property rights, and trademarks.
7
 We recommended that SSA take this action in our recent report, Social Security Number Misuse for
Work and the Impact on the Social Security Administration’s Master Earnings File (A-03-07-27152),
September 2008.
Page 4 - The Commissioner


the integrity of its enumeration 8 process by placing a special indicator code on
Numident records when a numberholder disclaims wages and/or alleges SSN misuse.
This indicator should prevent the issuance of replacement SSN cards and/or SSN
Verification Printouts without independent verification of identity documents.

CATEGORY A (6 TO 12 EMPLOYERS)

We determined that 4 (1.6 percent) of the 250 sample SSNs were potentially used by
more than 1 person to work in TY 2005. 9 Furthermore, during 2004 and 2005,
two (0.8 percent) of these numberholders contacted SSA and/or the IRS to dispute
earnings reported under their SSNs.

We recognize there are instances when individuals work more than one full-time job.
However, we believe it improbable that one person could work multiple full-time jobs
simultaneously, especially when their W-2s indicate they live in two or more States or
different sections of the country. 10 For instance, one earnings record revealed that the
numberholder worked for eight employers in TY 2005 with total earnings over $111,000.
These employers were generally associated with construction companies and
temporary agencies. Although we did not receive employment verifications from all
employers, three stated the individual who worked under our sample numberholder’s
SSN and name was employed full-time during the same 6 months. These three
employers sent the individual’s W-2s to addresses in Florida and Tennessee. This
individual’s earnings records from 2004 through 2006 showed that he worked for an
average of 10 employers each year with total reported earnings from $56,000 to
$156,000. However, based on the responses of the employers we contacted, we do not
believe it is feasible only one employee used this SSN and name to work.

SSA did not have a process to routinely distinguish the probability for SSN misuse in
such cases. We understand that to do so, SSA would need to contact numberholders
and employers to verify posted wages, which may prove to be labor-intensive and
costly. To its credit, SSA issues numberholders an annual Social Security Statement on
wages reported under their SSN. 11 However, SSA must rely on numberholders and/or
the IRS to report earnings that resulted from SSN misuse.


8
    Enumeration is the process SSA uses to assign SSNs and issue original and replacement SSN cards.
9
 We believe this figure may be conservative as we did not contact the employers of all 250 cases in this
sample. We plan to provide these SSNs to our Office of Investigations for further examination.
10
 We did not verify whether these individuals lived or ever lived at the addresses documented on their
W-2s.
11
  The Social Security Statement provides estimates of individuals’ Social Security benefits under current
law and provides updates to their latest reported earnings. Section 1143 of the Social Security Act, as
amended, requires that SSA issue Statements automatically, without request, to all SSN holders age
25 and older who are not yet in benefit status and for whom the Agency can determine a current mailing
address.
Page 5 - The Commissioner


CATEGORY B (13 TO 100 EMPLOYERS)

We determined that 21 (10.5 percent) of the 200 SSNs reviewed were potentially used
by more than 1 individual to work in TY 2005. 12 Therefore, we estimate 2,268 of the
21,603 SSNs were potentially misused by another for work purposes. 13 Furthermore,
between 2000 and 2008, 14 (7 percent) of these numberholders contacted SSA and/or
the IRS to dispute earnings reported under their SSN.

We acknowledge that some individuals work more than one full-time job. However, we
believe it improbable that individuals could work multiple full-time jobs during the same
time period, while their W-2s indicate they lived in different geographic locations. The
following instances from our sample illustrate the probability that SSN misuse occurred.

     One individual’s earnings record revealed he worked for 22 employers in
      TY 2005 with total earnings over $202,000. Many of this numberholder’s employers
      were associated with the meat packing and temporary staffing industries. While we
      did not receive employment verifications from all of these employers, five verified
      that the individual who used our sample numberholder’s SSN and name was
      employed full-time all year. These five employers sent the individual’s W-2s to
      Kansas and New Jersey. This individual’s earnings records from 2004 through
      2006 showed that he worked for an average of 20 employers each year with total
      reported earnings from $167,000 to $221,000. However, the true SSN owner denied
      working with some of the employers who reported wages under his SSN and name.

     Another individual’s earnings record indicated he worked for 20 employers, including
      some in the temporary agency, meat packing, and construction industries during
      TY 2005. While we did not receive employment verifications from all of the
      employers, four confirmed that the individual who used the true numberholder’s
      SSN and name worked full-time all year. These employers sent W-2s to addresses
      in Georgia, Maryland, North Carolina, and Missouri. This individual’s earnings
      records from 2004 through 2006 showed that he worked for an average of
      19 employers each year with total reported earnings from $159,000 to $277,000.
      However, in 2005, the true SSN owner denied working with some of the employers
      and disclaimed approximately $156,000 of the wages reported under his
      SSN and name.

CATEGORY C (OVER 100 EMPLOYERS)

For Category C, we did not find any evidence that multiple individuals were using a
numberholder’s SSN for work purposes. Initially, we were concerned because over
100 companies reported earnings in TY 2005 for each of these 14 SSNs. In addition, it
appeared that most of the companies listed on each SSN’s earnings record were

12
     We plan to provide these SSNs to our Office of Investigations.
13
  We believe this is a conservative estimate as we did not contact the employers of all 200 cases in this
sample. Appendix B contains our sample appraisal.
Page 6 - The Commissioner


located in Delaware or Nevada. Furthermore, there were multiple instances in which
companies listed on 1 numberholder’s record were also listed as an employer of 1 of the
other 13 individuals in our sample. As such, we asked our Office of Investigations to
assist us in examining whether SSN misuse may have been associated with these
SSNs. We determined that Delaware and Nevada have business-friendly laws and
regulations for passive investment corporations. It appears the 14 individuals who
received wages from more than 100 employers in TY 2005 were serving as resident
agents, officers and/or board members for numerous corporations—and received W-2s
from each.

OPPORTUNITY FOR SSA TO IMPROVE ITS EARNINGS AND ENUMERATION
PROCESSES

We acknowledge that SSA’s ability to accurately record individuals’ earnings greatly
depends on employers and employees correctly reporting SSNs and names.
Additionally, we are aware that investigating each case in which over six employers
reported annual wages for an individual would be labor-intensive and costly—and would
produce mixed results. Nonetheless, we believe SSA could improve its earnings
process by discontinuing the posting of wages to earnings records when the true
numberholder previously disclaimed wages from the employer(s). Further, SSA could
improve its enumeration process by updating the Numident with a special indicator
when individuals’ posted earnings resulted from SSN misuse.

Based on our review of the MEF and Item Correction system, 14 we determined that SSA
continued to post earnings from companies—even though the numberholders had
notified SSA that they were never employed by the company. For Categories A and
B, collectively, 16 individuals contacted SSA and/or the IRS and disputed working for
some employers listed on their earnings record. As a result, SSA removed the
disclaimed wages from the individuals’ accounts. For example, one of our sample
numberholders disclaimed over $110,000 of wages in TY 2004 reported by
seven employers. Although SSA removed the TY 2004 disclaimed wages from the
numberholder’s record, the Agency posted wages reported by these same employers
the following year.

We believe SSA can effectively improve its earnings process by reducing this type of
posting. Additionally, such a measure would prevent the true numberholder from being
required to visit SSA and/or the IRS each year to disclaim these wages—helping
improve public perception of SSA and reduce the Agency’s workload.

We recently recommended the Agency consider implementing a cost-effective method
that automatically posts to the ESF subsequent wage items that have the same




14
  SSA’s Item Correction system enables certain SSA employees to correct individuals’ earnings details
on their MEF records as well as add, change, move, or delete earnings overnight via an on-line system.
Page 7 - The Commissioner


characteristics of previously disclaimed wage items. 15 While SSA agreed with our
recommendation, it responded with the following.

          We will evaluate the systems resources needed to implement the
          proposed process and the potential effects on our operations to
          determine whether the proposed changes are cost-effective, feasible,
          and desirable. We believe disclaimed wage items identified in this
          proposed process would invariably be the result of “identity theft” or
          “fraud” and the OIG, Office of Investigation should receive referrals for
          these items. Therefore, implementing an automatic process would
          require a wide range of resources, in addition to system costs,
          throughout the agency.

We are encouraged that SSA will evaluate the possibility of the proposed process and
therefore we will not make a further recommendation to address the earnings
recordation process in this report. However, we will monitor the Agency’s progress in
addressing this corrective action and make further recommendations in future audits, as
necessary.

In addition to improving its earnings process, we believe SSA can improve the integrity
of its enumeration process by linking SSN misuse identified in the earnings process to
the true SSN owner’s Numident. In 2007, SSA established a special indicator code on
the Numident that signifies SSN misuse. However, the Agency uses this code only
when it assigns a new SSN to the numberholder. 16 We believe the Agency should
consider implementing another special indicator code when it and/or the IRS establishes
SSN misuse and SSA removes the associated earnings from numberholders’ accounts.
We also believe any special indicator established should require that field office staff
independently verify the requestor’s identity before SSA’s enumeration system permits
issuance of SSN Verification Printouts or replacement cards.

CONCLUSION AND RECOMMENDATION

Although our audit confirmed that earnings records with wages reported by multiple
employers in 1 year may be indicative of SSN misuse, we also noted some legitimate
reasons for such occurrences. Without performing extensive research for each instance
in which six or more employers reported wages for a numberholder in a TY, we believe
it would be imprudent to conclude that SSN misuse occurred in every case.
Accordingly, we are not recommending that SSA take any action to routinely examine
such instances. However, as we recommended in a previous report, 17 when a
numberholder disclaims wages from an employer and reports SSN misuse to SSA, we

15
  SSA OIG, Social Security Number Misuse for Work and the Impact on the Social Security
Administration's Master Earnings File (A-03-07-27152), September 2008.
16
     SSA, POMS, RM 00204.405.
17
     Supra, note 15.
Page 8 - The Commissioner


believe the Agency should implement procedures precluding future posting of wages
from the employer. Additionally, we believe SSA could better ensure the integrity of its
enumeration process by placing a special indicator code on Numident records when a
numberholder disclaims wages and/or alleges SSN misuse.

Accordingly, we recommend SSA:

1. Evaluate the feasibility of adding a special indicator code on the Numident for those
   numberholders who disclaimed wages with SSA or the IRS and alleged that
   someone other than the true numberholder used his or her SSN and name to work.
   This indicator should prevent the issuance of replacement SSN cards and/or SSN
   Verification Printouts without independent verification of identity documents.

AGENCY COMMENTS
SSA agreed with our recommendation. The Agency’s comments are included in
Appendix C.



                                         S
                                            Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
ESF     Earnings Suspense File
EIN     Employer Identification Number
IRS     Internal Revenue Service
MEF     Master Earnings File
OIG     Office of the Inspector General
SSA     Social Security Administration
SSN     Social Security Number
TY      Tax Year
U.S.C   United States Code


Form
W-2     Wage and Tax Statement
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we performed the following steps.

   Reviewed applicable Federal laws and regulations as well as pertinent sections of
    the Social Security Administration’s (SSA) policies and procedures.

   Reviewed Office of the Inspector General reports.

   Obtained a data extract from SSA’s Master Earnings File (MEF) for numberholders
    whose records contained six or more employer identification numbers (EIN) in
    Tax Year (TY) 2005.

   Divided our universe of 881,019 Social Security number (SSN) records in the MEF
    into the following three categories.

     Category A – SSNs with 6 to 12 EINs. We identified a population of
       859,402 SSNs for Category A, and we randomly selected 250 SSNs to review.

     Category B – SSNs with 13 to 100 EINs. We identified a population of
       21,603 SSNs for Category B, and we randomly selected 200 SSNs to review.

     Category C – SSNs with over 100 EINS. We identified a population of
       14 SSNs for Category C, and we performed a 100-percent review.

For Categories A, B, and C, we performed the following steps to isolate those SSN
records that indicated there was a higher probability that more than one individual used
the same SSN and name (assumed another’s identity) to work.

   Reviewed numberholders’ Numidents to determine age and number of replacement
    cards SSA issued to them.

   Reviewed TY 2005 detailed earnings queries and looked for wage postings with
    dollar amounts that could be indicative of a full-time job.

   Obtained and reviewed TY 2005 Form W-2 (Wage and Tax Statement) information
    to determine whether the SSN and name reported matched our sample record data.
    We also reviewed the numberholder’s address on the W-2.




                                           B-1
   Compared numberholders’ W-2 addresses to LexisNexis 1 addresses.

From this preliminary review of Categories A, B, and C, we

     isolated 41 SSNs in Categories A and B for further analysis (Category A had
        9 SSNs and Category B had 32 SSNs) and

     provided the list of Category C SSNs to our Office of Investigations for further
        analysis.

For the 41 SSNs (Categories A and B) isolated for further analysis, we performed the
following additional steps.

   Reviewed detailed earnings queries for TYs 2004 through 2006 for any
    commonalities.

   Reviewed each sample number’s Numident to determine whether the numberholder
    was native or foreign born.

   Reviewed each sample number’s SSN verification printouts issued since
    October 2001.

   Obtained summary earnings queries, where appropriate, to review each
    numberholder’s work history.

   Contacted approximately 564 employers to verify whether the individual who used
    our sample record’s SSN and name worked full- or part-time and their dates of
    employment.

   Reviewed SSA’s Item Correction system to determine whether numberholders had
    previously disputed earnings that SSA posted between 2000 and 2008 and SSA
    recorded that the numberholder and/or the Internal Revenue Service indicated SSN
    misuse.

We found the data used for this audit were sufficiently reliable to meet our audit
objective. The entity audited was the Office of Central Operations under the Deputy
Commissioner of Operations. Our work was conducted at the Atlanta Audit Division,
Birmingham, Alabama, from January through October 2008. We conducted this
performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and



1
 LexisNexis is an on-line service that provides comprehensive information, such as legal, news, business
and public records content.


                                                 B-2
conclusions based on our audit objective. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. The
following table shows our sample size, results, and appraisal.

Table 1: Sample Results and Projection for Category B


                         SAMPLE ATTRIBUTE APPRAISAL

Total Population of SSNs with 13 to 100 EINs (Category B) in TY 2005         21,603

Sample Size                                                                     200

Number of Instances in Sample Where It Appears an SSN was Used By
More Than One Individual for Work Purposes                                       21

Estimate of Instances in Population Where It Appears an SSN was
Used By More Than One Individual for Work Purposes                            2,268

Projection—Lower Limit                                                        1,547

Projection—Upper Limit                                                        3,186

Projection made at the 90-percent confidence level.




                                         B-3
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      December 22, 2008                                                    Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      James A. Winn -- /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Earnings Records with Multiple Employer
           Identification Numbers” (A-08-08-18002)--INFORMATION


           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Our response to the report findings and recommendation is
           attached.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“EARNINGS RECORDS WITH MULTIPLE EMPLOYER IDENTIFICATION
NUMBERS” (A-08-08-18002)

Our response to your specific recommendation is as follows.

Recommendation

Evaluate the feasibility of adding a special indicator code on the Numident for those
numberholders who disclaimed wages with SSA or the Internal Revenue Service and alleged that
someone other than the true numberholder used his or her Social Security number (SSN) and
name to work. This indicator should prevent the issuance of replacement SSN cards and/or SSN
Verification Printouts without independent verification of identity documents.

Comment

We agree to evaluate the feasibility of adding special indicators in cases of disclaimed wages.
We take very seriously our commitment to maintaining the integrity of the enumeration
process. We currently have policies and procedures in place to ensure that we issue a
replacement Social Security card or an SSN printout only to the individual to whom the SSN is
assigned.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kimberly A. Byrd, Director, (205) 801-1650

   Theresa Roberts, Audit Manager, (205) 801-1619

Acknowledgments

In addition to those named above:

   Kozette Todd, Auditor-In-Charge

   Kathy Yawn, Senior Auditor

   Charles Lober, Information Technology Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-08-08-18002.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
